C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-930

CIC SERVICES, LLC,
Petitioner,
v.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

INTERNAL REVENUE SERVICE, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE PROFESSOR BRYAN T. CAMP IN
SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
BRYAN T. CAMP
Counsel of Record and Amicus Curiae
TEXAS TECH UNIVERSITY SCHOOL OF LAW
3311 18th Street
Lubbock, Texas 79409-0004
806-834-8606
bryan.camp@ttu.edu

Subscribed and sworn to before me this 11th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS

shoo Oudiaw-h, Cha

 

My Comm. Exp. September 5, 2023,

 

Notary nee. 0. Lo

Affiant 40014
Attorneys for Petitioner
Patrick Strawbridge

Counsel of Record
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com
617-227-0548
Party name: CIC Services, LLC

Attorneys for Respondents
Jeffrey B. Wall
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Party name: Internal Revenue Service, et al.
